AUDIT OF LEGAL FEES PAID TO HUNTON & WILLIAMS



                 Audit Report No. 99-024
                       May 5, 1999




                OFFICE OF AUDITS

        OFFICE OF INSPECTOR GENERAL




        Material has been redacted from this
        document to protect personal privacy,
        confidential or privileged information.
FDIC
Federal Deposit Insurance Corporation                                                    Office of Audits
Washington, D.C. 20434                                                      Office of Inspector General

DATE:                         May 5, 1999

MEMORANDUM TO:                James T. Lantelme
                              Assistant General Counsel
                              Legal Operations Section
                              Legal Division



FROM:                         Steven A. Switzer
                              Deputy Inspector General

SUBJECT:                      Legal Fees Paid to Hunton & Williams

The Office of Inspector General (OIG) has audited the legal fees paid by the FDIC and former
Resolution Trust Corporation (RTC) to the firm of Hunton & Williams, Richmond, Virginia.
The audit was conducted by the independent public accounting (IPA) firm of Joseph Melookaran
& Associates on behalf of the OIG. The FDIC incurs legal fees when attorneys and law firms
are retained to assist the Legal Division perform its mission. The authority and responsibility for
the retention of outside counsel, oversight of services rendered, and approval of contractor
claims resides with the General Counsel and Legal Division. The OIG performs audits of law
firm billings, similar to other contract audits, to ensure that such billings are adequately
supported and comply with cost guidelines agreed to by the parties.

                         SCOPE, OBJECTIVE AND METHODOLOGY

The audit included a review of 40 fee bills totaling $1,175,209, or 52 percent, of the $2,269,622
paid by FDIC and RTC to Hunton & Williams from January 1, 1990 through June 30, 1993. The
objective of the audit was to determine whether the fee bills submitted by the firm were
(1) adequately supported by source documentation, (2) prepared in accordance with applicable
agreements, and (3) representative of the cost of services and litigation that had been approved
in advance by the Legal Division.

Audit fieldwork included interviews and tests of transactions in the law offices of
Hunton & Williams. The audit was conducted in accordance with the Government Auditing
Standards and, thus, included such tests of the accounting records and other auditing procedures
as considered necessary under the circumstances. We did not evaluate the firm's system of
internal controls because we concluded that the audit objective could be met more efficiently by
conducting substantive audit tests rather than by placing reliance on the internal control system.

The sampled bills were tested for compliance with the FDIC and RTC policies and procedures
for submitting fee bills as included in the Guide for Outside Counsel ("Guide"), the earlier Guide
for Legal Representation, and the Legal Services Agreements in effect between the FDIC or
RTC and the firm.
This audit covered relevant source documents supporting legal fee bills. We reviewed the fee
rates) and claims for reimbursable expenses such as subcontractors, travel, courier services and
document reproduction. The auditors held an exit conference with Hunton & Williams
representatives at the conclusion of fieldwork. The firm later provided written comments to the
preliminary findings which are summarized into this report where applicable.

                                    RESULTS OF AUDIT

The audit concluded that except for $245,269 in fees and expenses, the billings submitted by the
firm generally were supported by source documentation and complied with the cost guidelines
set forth by the FDIC and RTC. Of the $245,269 questioned, $233,163 related to fees billed
which were not supported by original time sheets, fees billed for unauthorized research,
unauthorized personnel, incorrect rates during travel, time sheet/invoice errors, unauthorized
rates, and for non-billable tasks. The remaining $12,106 related to expenses billed which were
either not supported or were not in compliance with the governing Legal Services Agreement.
The questioned costs are summarized in the following chart and described in more detail in the
Findings and Recommendations section of this report.


                                Summary of Questioned Costs

                         Description                        Finding         Questioned
                                                            Number            Cost
       Unsupported Professional Fees                           1               $173,601
       Fees Billed for Unauthorized Research                   2                  32,719
       Unauthorized Personnel                                  3                  15,517
       Time Sheet/Invoice Errors                                 4                  5,827
       Incorrect Rates Billed During Travel                      5                  2,291
       Unauthorized Rates                                        6                  2,346
       Non-Billable Tasks                                        7                   862
              Subtotal Fees                                                     $233,163
       Photocopying Expenses                                     8                  8,389
       Unsupported Telephone Expenses                            9                  2,701
       Local Meal Charges                                       10                  1,016
               Subtotal Expenses                                                 $12,106
               Total Questioned Costs                                           $245,269




                                                2
                          FINDINGS AND RECOMMENDATIONS

UNSUPPORTED PROFESSIONAL FEES

Hunton & Williams did not provide original attorney time sheets to support $173,601 in fees
billed to the RTC. The RTC Guide for Outside Counsel, dated February 1992, includes a
statement that “Outside counsel is required to retain copies of all bills and underlying
documentation, including original time sheets and other time and expense adjustment records, for
four years after payment.” The Legal Services Agreement contained a three year record
retention requirement. The missing time sheets related to fees billed on eight invoices submitted
to the RTC from August 1991 to March 1992. Time sheets or other sources of original time
entries (such as diaries) were requested for all attorneys for the audit period. Most of the
attorneys in the audit sample provided time sheets; however, numerous attorney time sheets were
not located. Since time sheets reflecting a substantial amount of professional service fees were
not available for review, the auditors could not adequately substantiate the representative
professional fees and make necessary determinations regarding their validity. We noted 455
time sheets representing eight timekeepers which were not available.

In September 1995, Hunton & Williams provided a written response to preliminary audit
conditions stating that the missing time sheets related almost entirely to services provided by
their Fairfax, Virginia office lawyers and paralegals. Due to space limitations at the Fairfax
office, non-critical materials were often stored off-site. At the time of the audit, the firm
searched the Fairfax office for time sheets and were unable to locate the original time sheets for a
number of attorneys. Since the audit, the Fairfax office has moved and they believe the original
records for most of the applicable attorneys have been misplaced off-site or inadvertently
destroyed.

Recommendation
(1)  The Assistant General Counsel, Legal Operations Section, should disallow $173,601 for
     unsupported professional fees.

FEES BILLED FOR UNAUTHORIZED RESEARCH

The Guides for Outside Counsel issued by the FDIC and RTC provide that no major research
projects shall “be commenced until you have determined from the responsible Division attorney
whether there is any relevant information in either our files or our research bank.” Although the
time spent by the firm’s biller on several research projects appears generally relevant to matters
handled by the firm, the auditors noted 59 instances of professional fees billed for unauthorized
research on FDIC matters and 9 instances on RTC matters. In these instances, there was no
written evidence to indicate that the research projects were approved or that the firm made an
inquiry whether the Legal Division had any relevant information in its research bank which
would have eliminated the need for the research. As a result, we question $29,538 for fees billed
for unauthorized research on FDIC matters and $3,181 on RTC matters.




                                                  3
Hunton & Williams responded that much of this research was performed with the knowledge and
approval of the supervising FDIC or RTC attorneys. Furthermore, the FDIC’s lawyers elected to
dispense with formal requests for review of proposed research in view of the firm’s engagement
at the last minute and the exigencies of the case.

Recommendation

2)      The Assistant General Counsel, Legal Operations Section, should review the research
        charges to evaluate whether the research was necessary and appropriately charged.
        Based on this review, disallow in full or part $32,719 for unauthorized research.

UNAUTHORIZED PERSONNEL

Hunton & Williams billed the RTC $15,082 and FDIC $435 in fees for personnel not approved
on the respective LSA. Some of the attorneys billing on RTC matters were listed on the FDIC
LSA but not on an LSA with RTC. Professional services billed to RTC are allowable only for
attorneys approved by RTC as specified in the LSA or added by written mutual consent. We
identified 12 attorneys working on RTC matters and 3 working on FDIC matters without written
authorization.

Recommendation

3)      The Assistant General Counsel, Legal Operations Section, should disallow $15,517 for
        unauthorized personnel.

TIME SHEET/INVOICE ERRORS

The audit included a verification that the amount of time billed for professional fees on invoices
was supported by individual time sheets. Time sheet entries were compared to descriptions and
hours billed on invoices submitted to RTC and FDIC. Hours billed on invoices, less
adjustments, should have reflected original time sheet entries ensuring accurate billing for
services provided. However, we noted six entries during the comparison of time sheets to
invoices which showed more hours billed on the invoice than recorded on the original time sheet.
As a result, RTC was over billed $3,827. In its response to preliminary audit conditions, the
firm stated that these differences were attributable to clerical errors.

The audit also included a review of invoices for mathematical accuracy. We identified one
instance of a clerical error resulting in a $2,000 overcharge to the RTC. The error occurred when
the total amount of professional fees was transferred from the detail billing report to the invoice
sent to RTC. The firm acknowledged this error in their response to the preliminary conditions.

Recommendation

4)      The Assistant General Counsel, Legal Operations Section, should disallow $5,827 for
        time sheet/invoice errors.




                                                  4
INCORRECT RATES BILLED DURING TRAVEL

Several of the case matters required Hunton & Williams attorneys to travel away from their
home office. The LSA specified that travel time is to be billed at 50 percent of the authorized
hourly rate. We noted seven entries involving travel time totaling $8,192 in which the rates were
not reduced for the time traveling. As a result, the FDIC and RTC were billed at improper rates
resulting in an overcharge of $2,291.

Recommendation

5)      The Assistant General Counsel, Legal Operations Section, should disallow $2,291 for
        incorrect rates billed during travel.

UNAUTHORIZED RATES

Hourly rates billed to FDIC and RTC are authorized only by those specified in the LSA or
subsequent written amendments. We identified 10 instances in which the rate billed by Hunton
& Williams exceeded the authorized rate. As a result, FDIC and RTC were billed an excess
$2,346. The firm responded to these discrepancies that there were times when their computer did
not correctly correspond to the RTC or FDIC rates.

Recommendation

6)      The Assistant General Counsel, Legal Operations Section, should disallow $2,346 for
        unauthorized rates.

NON-BILLABLE TASKS

Hunton & Williams invoices contained fees for services that appeared to be clerical or otherwise
non-billable tasks. Tasks such as preparing cover sheets for facsimiles are non-billable under the
terms of the LSA. Other tasks such as researching conflicts of interest and preparation of status
reports are also non-billable and have been questioned. As a result, we question fees totaling
$862 for non-billable administrative tasks.

Recommendation

7)      The Assistant General Counsel, Legal Operations Section, should disallow $862 for
        non-billable tasks.

PHOTOCOPYING EXPENSES

The RTC Guide for Outside Counsel, dated February 1992, states that charges for photocopying
shall not exceed 8 cents a copy unless a cost study is provided by the firm to document actual
cost. Hunton & Williams charged an average of 12 cents per photocopy and did not provide a
cost study to support the 12 cents a copy cost. The firm provided documentation in a letter dated




                                                  5
September 25, 1995 in response to preliminary conditions which detailed their photocopying
charges. Based on this information provided by the firm, RTC was overcharged $8,389 for
photocopying charged in excess of RTC cost limitations.

Recommendation

8)      The Assistant General Counsel, Legal Operations Section, should disallow $8,389 for
        photocopying expenses over the allowable rate.

UNSUPPORTED TELEPHONE EXPENSES

Hunton & Williams could not provide supporting documentation for $2,701 in telephone charges
billed to the FDIC and RTC during the audit period. The FDIC and RTC Guides for Outside
Counsel required the firm to maintain all bills and underlying expense documentation for four
years after payment. Due to the lack of supporting documentation, we were unable to verify the
accuracy or appropriateness of these telephone charges. The firm responded in September 1995
that the phone charges relate to a period before itemized calls regularly were included on their
time and charges inventory, and it is no longer possible to reconstruct their telephone log.

Recommendation

9)      The Assistant General Counsel, Legal Operations Section, should disallow $2,701 for
        unsupported telephone expenses.

LOCAL MEAL CHARGES

Hunton & Williams billed $1,016 RTC for lunches and refreshments while attorneys were
working at their home office. The RTC Guide for Outside Counsel states “charges for food,
beverages and the like will not be reimbursed by the RTC unless the attorney is in travel status
and is away from the home office overnight.” Hunton & Williams responded to this condition
that they later became aware this type of expense was not billable and ceased charging the RTC
for these items.

Recommendation

10)     The Assistant General Counsel, Legal Operations Section, should disallow $1,016 for
        local meal charges.




                                              6
                 MANAGEMENT COMMENTS AND OIG EVALUATION

On April 20, 1999, the General Counsel provided a written response to the draft report. The
response is presented as Appendix I to this report.

The General Counsel fully disallowed the questioned costs in recommendations 5 through 10,
and partially disallowed the questioned costs in recommendations 3 and 4 for a total
disallowance of $25,645. The Legal Division allowed $173,601 related to recommendation 1
for unsupported professional fees, and $32,719 in research charges related to recommendation 2.

In recommendation 1, the OIG recommended disallowance of $173,601 for unsupported legal
fees. The questioned costs related to the firm not retaining original timesheets to support hours
billed as required by the RTC Guide for Outside Counsel. The Legal Division responded that the
firm had an obligation to retain daily time sheets as required by the LSA and RTC Guide.
However, the Legal Division applied a "sliding scale" analysis to the questioned costs under
which no disallowance of hourly charges for lack of supporting documentation was determined
to be appropriate. The Legal Division's conclusion that RTC received full value is based on the
following: (1) according to recent testimonials from two former supervisory attorneys, the
invoices were reviewed by RTC oversight attorneys prior to payment; (2) the fees charged for
services were within the norm; (3) the firm did not exceed any budgets on RTC matters; and
(4) the Legal Division's review of the invoice data indicates that the firm was not an excessive
biller. The Legal Division also stated that the firm's electronic billing system provided an
adequate alternative audit trail.

The OIG contends that in the absence of original time records available at the time the audit was
conducted, the IPA could not independently satisfy itself that the $173,601 in time charges were
appropriately supported. Therefore, for recommendation 1, the OIG will continue to question
$173,601.

In recommendation 2, the OIG recommended that the Assistant General Counsel, Legal
Operations Section, should review $32,719 in research charges to evaluate whether the research
was necessary and appropriately charged. The auditors questioned the research charges because
there was no written evidence that the FDIC or RTC supervising attorneys approved the research
projects. The firm contends that FDIC supervisory attorneys dispensed with formal requests for
review of proposed research in view of the firm's engagement at the last minute and the
exigencies of the case. The Legal Division responded that a review of the questioned invoices
confirms that FDIC supervisory attorneys appear to have been involved in every facet of the
litigation. The Legal Division accepts the firm's explanation regarding the unauthorized research
on both the FDIC and RTC time entries. The Legal Division acknowledges that it is often
necessary for supervising attorneys who have detailed knowledge of a case to dispense with
formal approval mechanisms under exigent circumstances. The OIG accepts management's
explanation and, accordingly, reduced questioned costs to $0.
In recommendation 3, the OIG recommended disallowance of $15,517 for personnel who were
not approved on the Legal Services Agreement. The Legal Division agreed with the OIG that
the questioned personnel were not included on either an FDIC or RTC LSA nor had other written
approval from the Legal Division. The Legal Division ratified the rates of the affected
individuals at the lowest approved rate for a professional in their category. Accordingly, the
Legal Division will disallow $3,060 for unauthorized personnel. The OIG accepts management's
explanation and, accordingly, reduced questioned costs to $3,060.

In recommendation 4, the OIG recommended disallowance of $5,827 for time sheet/invoice
errors. The firm submitted additional information after issuance of the draft report that
supported $847 of the questioned costs. As a result, the Legal Division will disallow $4,980.
The OIG accepts management's explanation and, accordingly, reduced questioned costs to
$4,980.

Appendix III presents management’s proposed action on our recommendations and shows that
there is a management decision for each recommendation in this report. After considering
additional information provided by the firm and management’s response to the draft report, we
will report questioned costs of $199,246 (including $176,302 in unsupported costs) in our
Semiannual Report to the Congress.
                                                                                     Appendix I

FDIC
Federal Deposit Insurance Corporation
Washington, D.C. 20429                                                                  Legal Division

                                                            April 20, 1999

MEMORANDUM TO:                       David H. Loewenstein
                                     Assistant Inspector General
                                     Office of Inspector General




THROUGH:                             William F. Kroener, III
                                     General Counsel



                                     William S. Jones
                                     Supervisory Counsel
                                     Outside Counsel Unit


FROM:                                James P. Flannery
                                     Senior Attorney
                                     Outside Counsel Unit

SUBJECT:                             Legal Division Response to the FDIC
                                     Inspector General’s Fee Bill Audit of
                                     Hunton & Williams (Richmond, VA.)

       This memorandum constitutes the Legal Division’s response to the FDIC’s Office of Inspector
General’s (“OIG”) draft audit report dated November 20, 1998, entitled Audit of Legal Fees Paid by
FDIC to Hunton & Williams (“Report”), and the comments of Hunton & Williams (“Firm”). The OIG
Report, with enclosures, is included herein as Exhibit A. The Firm’s January 14, 1999 letter to Allan H.
Sherman, which constitutes the Firm’s response (“Response”), is included as Exhibit B.

        The Report pertains to work performed for both the FDIC and for the former Resolution Trust
Corporation (“RTC”) prior to the RTC’s merger with the FDIC and was the result of audit work
performed at the Firm’s offices. The Report reviews 40 fee bills totaling $1,175,209 or 52 percent of the
$2,269,622 paid by the FDIC and RTC to the Firm from January 1, 1990 through June 30, 1993. The
objective of the audit was to determine whether the fee bills submitted by the Firm were adequately
supported and within the terms of the governing agreements. The Report questions a total of $245,269
of the $2,269,622 paid to the Firm from January 1, 1990 through June 30, 1993. In response to the
OIG’s Report and the Firm’s Response, the Legal Division will disallow $25,645.

       The Legal Division’s position regarding each audit finding is explained below in the same order
in which it appears in the Report. For ease of reference, the Report’s recommendations are indented and
have been placed in bold type.
               Recommendation No. 1: The Assistant General Counsel, Legal Operations
               Section, should disallow $173,601 for unsupported professional fees.

        According to the Report, the Firm did not provide original time sheets to support
$173,601 in fees billed to the RTC. The RTC Guide for Outside Counsel (“RTC Guide”), dated
February 1992, includes a statement that “Outside counsel is required to retain copies of all bills
and underlying documentation, including original time sheets and other time and expense
adjustment records, for four years after payment.” The Legal Services Agreement contained a
three-year record retention requirement. The missing time sheets related to fees billed on eight
invoices submitted to the RTC from August 1991 to March 1992. Time sheets or other sources
of original time entries (such as diaries) were requested for all attorneys for the audit period.
Most of the attorneys in the audit sample provided time sheets, however, numerous attorney time
sheets were not located. According to the Report, 455 time sheets representing eight timekeepers
were not available. Since missing time sheets reflecting a substantial amount of professional
service fees were not available for review, the auditors could not adequately substantiate the
representative professional fees and make necessary determinations regarding their validity.

        In September 1995, the Firm provided a written response to preliminary audit conditions
stating that the missing time sheets related almost entirely to services provided by their Fairfax,
Virginia office lawyers and paralegals. Due to space limitations at the Fairfax office, non-critical
materials such as time sheets were often stored off-site. At the time of the audit, the Firm
searched for time sheets and was unable to locate original time sheets for a number of attorneys.
Since the audit, the Firm’s Fairfax office has moved and the Firm believes the original sheets
have been misplaced or inadvertently destroyed.

        The Firm’s response questions the “wholesale” disallowance of $173,601 in fees due to
lack of original time sheets. The Firm contends that its computer records are the equivalent of
attorney generated records. Many of the Firm’s attorneys now directly input time data into an
electronic billing system. According to the Firm, “[t]he concern expressed in the Draft Report is
that the auditors could not adequately substantiate the representative professional fees and make
necessary determinations regarding their validity.” However, the Firm states that its electronic
billing system is designed such that time data cannot be changed after entry in the system
without creating an audit trail. Any adjustment to time data previously entered causes the
original entry to be “backed out” in order to create a new one, leaving a clear audit trail. The
Firm, therefore, argues that original time data is still available to the auditors.

       According to the Firm, the bulk of the RTC work in the Fairfax Office centered on the
National Auction program for the RTC National Sales Center. According to the Firm’s office
procedures, written time records were transcribed into the Firm’s billing system. The billing
system produced detailed invoices that were reviewed by RTC supervisory attorneys.

       A review of the questioned invoices confirms that the Firm’s work on the RTC National
Auction Program was done with daily input and supervision from RTC legal representatives. A
review of questioned invoices reveals that the Firm worked closely with two or more RTC
attorneys on a daily basis. The Firm contends that given the level of supervisory review as well


                                                  2
as the detailed invoice review, it would be “unjust” to deny payment for work that was clearly
performed to the satisfaction of the RTC.

        It is Legal Division policy to apply principles and methodology approved by the FDIC
Audit Committee in December 1996 and November 1997 for missing time sheets. This “sliding
scale” analysis requires that five factors be considered: (1) the percentage of time charges not
supported by original time sheets; (2) whether the time sheets located and reviewed as part of the
audit revealed any discrepancies between fees billed and those time sheets; (3) whether any
indicia of fraud were uncovered during the audit; (4) the reason the time sheets were unavailable;
and (5) whether the bills not supported by time sheets appear reasonable and represent charges
for which the FDIC/RTC received commensurate benefits.

       Applying the five factors we find that: (1) approximately 15% ($173,601/$1,175,209) of
the audited fees involving hourly billing were not supported by time sheets; (2) the Firm has
admitted to discrepancies totalling $4,980 between fees billed and timesheets that were examined
(see Recommendation No. 4); (3) no indicia of fraud was uncovered during the audit; (4)
according to the Firm, it searched “carefully and diligently” and was unable to locate original
time sheets, and the Firm stated that the records were stored off-site and probably lost or
destroyed when its Fairfax office moved; and (5) according to former RTC supervisory
personnel, the fees billed appear to be reasonable and represent charges for which the RTC
received commensurate benefits.

        There is no dispute that the Firm had an obligation to retain daily time sheets as required
by the LSA and the RTC Guide. However, based on all five factors, the Legal Division will
make no disallowance of hourly charges for lack of supporting documentation. We place
overriding weight in this instance on our finding that RTC received full value for the billings in
question and that the variances found between the time sheets that were examined and related
invoices amounted to less than one-half of one percent of the audit sample. The Legal Division’s
conclusion that RTC received full value is based on the following: (1) according to recent
testimonials from two former supervisory attorneys, the invoices were reviewed by RTC
oversight attorneys prior to payment; (2) the fees charged for services were within norm; (3) the
Firm did not exceed any budgets on RTC matters; and (4) our review of the invoice data
indicates that the Firm was not an excessive biller. Moreover, the Report does not address the
Firm’s contention that its electronic billing system provided an adequate alternative audit trail.

     The Legal Division will not disallow any questioned costs in connection with
Recommendation No. 1.

               Recommendation No. 2: The Assistant General Counsel, Legal Operations
               Section, should review $32,719 in research charges to evaluate whether the
               research was necessary and appropriately charged.

        The Report recommends that $32,719 in research charges should be reviewed to
determine whether the research was necessary and appropriately charged. The Guides for
Outside Counsel issued by both the FDIC and the RTC provide that no major research projects
shall “be commenced until you have determined from the responsible Division attorney whether



                                                  3
there is any relevant information in either our files or the research bank.” Although the time
spent on several research projects appear generally relevant to matters handled by the Firm, the
auditors noted 59 instances of professional fees billed for unauthorized research on FDIC matters
and nine instances on RTC matters. In these instances, there was no written evidence to indicate
that the research projects were approved or that the Firm made an inquiry whether the Legal
Division had any relevant information in its research bank that would have eliminated the need
for the research. The Report questions $29,538 for fees billed for unauthorized research on
FDIC matters and $3,181 on RTC matters.

        The Firm responded that the questioned FDIC research charges related to the [material
readacted] case and were performed with the knowledge and approval of the supervising
attorneys. The Firm contends that FDIC supervisory attorneys dispensed with formal requests
for review of proposed research in view of the Firm’s engagement at the last minute and the
exigencies of the case.

        In response, the Firm produced correspondence with the FDIC dated August 20, 1992
regarding the Firm’s final statement for legal fees and disbursements in the [material redacted]
case. The purpose of the August 20, 1992 letter was to request payment on a final edited billing
statement (the “edited” bill included a $114,971 fee discount) for the Firm’s representation on
the [material redacted] matter. On March 9, 1993 the FDIC responded to the Firm’s August 20,
1992 letter with a detailed explanation of exactly what it would pay. The FDIC clearly reviewed
all charges (including the questioned research) proposed by the Firm and recommended a
payment of $217,009 after an additional disallowance. In correspondence dated March 11, 1994,
the FDIC confirmed that it had reached a full settlement and agreement with the Firm in regard
to [material redacted] billing issues. The Firm contends that the [material redacted] fees and
expenses have already been the subject of a “compromise and settlement” and a further
adjustment of [material redacted] fees is not appropriate.

        A review of the questioned invoices confirms that FDIC supervisory attorneys appear to
have been involved in every facet of this high profile litigation. According to the Firm, the
[material redacted] case involved substantial and unprecedented exigencies, including significant
policy determinations involving the Bank Insurance Fund made at the highest levels of the FDIC.

         The balance of the disallowance for unauthorized research involves two entries by
“[material redacted]” totaling $1,581. Timekeeper “[material redacted]” grouped a number of
activities including drafting, conference with RTC attorney, revising exhibits with some research
on a global issue memo. Accordingly, actual research charges would appear to be substantially
less than the questioned amount. The final research time entry involves “[material redacted]” in
the amount of $1,600. Timekeeper “[material redacted]” conducted research documented by a
June 15, 1992 e-mail that substantiates the Firm’s claim that it was undertaken with RTC
supervisory attorney concurrence.

       The Legal Division accepts the Firm’s explanation regarding the unauthorized research
on both the FDIC and RTC time entries. The Legal Division acknowledges that it is often
necessary for supervisory attorneys who have a detailed knowledge of a case to dispense with
formal approval mechanisms under exigent circumstances.



                                                4
       As such, the Legal Division accepts the Firm’s explanation regarding the invoice
entries related to research and no disallowances will be taken.

                  Recommendation No. 3: The Assistant General Counsel, Legal Operations
                  Section, should disallow $15,517 for unauthorized personnel.

        The Firm billed the RTC $15,082 and FDIC $435 in fees for personnel not approved on
the respective Legal Services Agreement. Some of the attorneys billing on RTC matters were
listed on the FDIC Legal Services Agreement but not on an LSA with the RTC. Professional
services billed to RTC are allowable only for attorneys approved by RTC as specified in the
Legal Services Agreement or added by mutual consent. The Report identified 12 attorneys
working on RTC matters and 3 working on FDIC matters without written authorization.

       Exhibit 3 of the Firm’s Response is a schedule that was appended to the Firm’s initial
LSA with the FDIC from December 12, 1990.1 The December 12, 1990 document pre-dates the
requirement for separate FDIC/RTC schedules and includes [material redacted] ($2,444);
[material redacted] ($1,587); [material redacted] ($2,401); and [material redacted] ($105).

        The Firm was under a contractual obligation to obtain written approval before it engaged
any additional personnel to work on legal matters. The policies of the Legal Division are clear
on this issue. The Legal Division examined all of the questionable invoices where individuals
billed for their services without being listed on either a FDIC or RTC LSA and without prior
written approval from the Division. In the absence of information required by the Guide, the
Legal Division has determined that it will ratify the rates of the affected individuals at the lowest
approved rate for a professional in their category (e.g., attorneys, case assistants, legal assistants,
summer associates, and paralegals). In determining the allowable rate for each category of
employee, we approve and ratify2 the rate for that professional at the lowest agreed billing rate as
it appears on the various agreements signed with the Firm as follows: [material redacted]
($2,464); [material redacted] ($9); [material redacted] ($63); [material redacted] ($90); [material
redacted] ($365); [material redacted] ($630); [material redacted] ($304); [material redacted]
($120); [material redacted] ($1,619); [material redacted] ($8); and [material redacted] ($248).

      Accordingly, The Legal Division will disallow $3,060 ($15,517 less $12,457) for
unauthorized personnel in connection with Recommendation No. 3.

                  Recommendation No. 4: The Assistant General Counsel, Legal Operations
                  Section, should disallow $5,827 for time sheet/invoice errors.

        The Report included verification that the amount of time billed for professional services
on invoices was supported by individual time sheets. Time sheet entries were compared to
descriptions and hours billed on invoices submitted to RTC and FDIC. Hours billed on invoices,
less adjustments, should have reflected original time sheet entries ensuring accurate billing for

1
  Office of Inspector General Exhibit Binder #1 of 5, Pg. 80.
2
  Since the General Counsel has complete delegated authority regarding issues raised by this Report, his signing of
this memorandum should be deemed a ratification or approval of application of LSA rates to the extent indicated
herein.


                                                          5
services provided. However, the Report noted six entries during the comparison of time sheets
to invoices that showed more hours billed on the invoice than recorded on the original time
sheet. As a result, RTC was over-billed $3,827. In its response to preliminary audit conditions,
the Firm stated that these differences were attributable to clerical errors. The Report states that
the Firm also admitted to a transposition error that resulted in a $2,000 overcharge to the RTC in
their response to the preliminary conditions.

       The Firm provided an explanation and documentation for two entries where the time was
properly chargeable although the bill reflects an incorrect date. According to the Firm both
questioned time entries were entered into the computer for the wrong date, but properly
chargeable. In each case the time entry was billed on the day immediately preceding the date that
the work actually occurred, without duplication. The Legal Division accepts this explanation
and will disallow the remaining questioned costs ($4,980) admitted by the Firm.

       The Legal Division will disallow $4,980 in connection with Recommendation No. 4.

              Recommendation No. 5: The Assistant General Counsel, Legal Operations
Section, should disallow $2,291 for incorrect rates billed during travel.

        The Firm’s Legal Services Agreement specified that travel time is to be billed at 50
percent of the authorized hourly rate. The Report noted seven entries involving travel time
totaling $8,192 in which the rates were not reduced. As a result, the FDIC and RTC were billed
at improper rates resulting in an overcharge of $2,291.

       The Firm offered no explanation for incorrect rates billed during travel.

       The Legal Division will disallow $2,291 in connection with Recommendation No. 5.

               Recommendation No. 6: The Assistant General Counsel, Legal Operations
               Section, should disallow $2,346 for unauthorized rates.

       The Report recommends the disallowance of $2,346 for ten instances where the Firm’s
attorneys billed rates in excess of the authorized rate on the Firm’s Legal Services Agreement.
As a result, FDIC and RTC were billed an excess of $2,346.

       The Firm admitted that the correct rate was not entered in the Firm’s billing system.

       The Legal Division will disallow $2,346 in connection with Recommendation No. 6.

              Recommendation No. 7: The Assistant General Counsel, Legal Operations
Section, should disallow $862 for non-billable tasks.

       The Firm’s invoices contained fees for services that appeared to be clerical or otherwise
non-billable tasks under the terms of the Legal Services Agreement.

       The Firm offered no explanation for improper charges.



                                                  6
       The Legal Division will disallow $862 in connection with Recommendation No. 7.

               Recommendation No. 8: The Assistant General Counsel, Legal Operations
               Section, should disallow $8,389 for photocopying expenses over the allowable
               rate.

         The Report recommends that the FDIC disallow $8,389 for photocopying charges that
were in excess of the allowable rate. According to the Report, the Firm billed for photocopying
at a rate that exceeded the $.08 per copy rate allowed under the applicable LSA and the FDIC
Guide for Outside Counsel.

       The Firm did not address this finding in its Response.

       The Legal Division will disallow $8,389 in connection with Recommendation No. 8.

               Recommendation No. 9: The Assistant General Counsel, Legal Operations
               Section, should disallow $2,701 for unsupported telephone expenses.

        The Report recommends a disallowance of $2,701 in telephone charges billed to the
FDIC and RTC during the audit period. The FDIC and RTC Guides for Outside Counsel
required the Firm to maintain all bills and underlying expense documentation for four years after
payment. Due to a lack of supporting documentation, it was impossible to verify the accuracy of
these telephone charges.

       The Firm responded that the phone charges relate to a period before itemized calls were
included on their time and charge inventory, and it is no longer possible to reconstruct their
telephone log.

       The Legal Division will disallow $2,701 in connection with Recommendation No.9.

               Recommendation No. 10: The Assistant General Counsel, Legal Operations
               Section, should disallow $1,016 for local meal charges.

        The Firm billed the RTC $1,016 for lunches and refreshments while attorneys were
working at their home office. The RTC Guide for Outside Counsel states “[c]harges for food,
beverages and the like will not be reimbursed by the RTC unless an attorney is in travel status
and is away from the home office overnight.”

         The Firm stated that it ceased charging the RTC for these items when it became aware
that this expense was not billable.

       The Legal Division will disallow $1,016 in connection with Recommendation No.10.

       Conclusion: The Legal Division will pursue a recovery of $25,645 as summarized
below. A demand letter will be sent to the Firm after the OIG issues its final audit report.



                                                7
Recommendations (and Questioned Costs)                                          Disallowance

No. 1: Unsupported Professional Fees ($173,601)                                         -

No. 2: Unauthorized Research ($32,719)                                                  -

No. 3: Unauthorized Personnel ($15,517)                                           $3,060

No. 4: Time Sheet/Invoice Errors ($5,827)                                          4,980

No. 5: Incorrect Rates Billed during Travel ($2,291)                               2,291

No. 6: Unauthorized rates ($2,346)                                                 2,346

No. 7: Non-Billable Tasks ($862)                                                     862

No. 8: Photocopying Charges ($8,389)                                               8,389

No. 9: Unsupported Telephone Expense ($2,701)                                      2,701

No. 10 Local Meal charges ($1,016)                                                 1,016

                                            TOTAL:                               $25,645


The Assistant General Counsel is authorized to make such minor accounting corrections as may
be recommended by the OIG, but which do not affect the substantive positions stated in this
memorandum. Completion of all corrective actions is anticipated within 180 days of issuance of
the final audit report by the OIG.




Exhibits:

       “A” - OIG Draft Audit Report
       “B” - Firm’s Response to the Draft Report




                                                   8
                                                                                                                                                                                     APPENDIX II

                                                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress.
To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for
each recommendation

    §    the specific corrective actions already taken, if applicable;
    §    corrective actions to be taken together with the expected completion dates for their implementation; and
    §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement.
 In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of corrective
actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management
decisions is based on management’s written response to our report.

                                                                                                                     Documentation That                            Management
  Rec.                                                                                    Expected                      Will Confirm            Monetary          Decision: Yes or
 Number                 Corrective Action: Taken or Planned/Status                     Completion Date                  Final Action            Benefits                 No

               The General Counsel, Legal Division, allowed $173,601 for
     1         unsupported professional fees. The OIG continues to                        Completed                 Legal Division Response         $0                  Yes
               questioned these costs.

               The General Counsel, Legal Division, allowed $32,719 for
                                                                                                                                                                        Yes
     2         unauthorized research. The OIG accepts management's                        Completed                 Legal Division Response         $0
               decision.

               The General Counsel, Legal Division, agreed to disallow                                                                             $3,060
     3                                                                             180 days from final report       Law Firm Refund Check                               Yes
               $3,060 for unauthorized personnel.                                                                                             disallowed costs


               The General Counsel, Legal Division, agreed to disallow                                                                             $4,980
     4                                                                             180 days from final report       Law Firm Refund Check                               Yes
               $4,980 for time sheet/invoice errors.                                                                                          disallowed costs


               The General Counsel, Legal Division, agreed to disallow                                                                             $2,291
     5                                                                             180 days from final report       Law Firm Refund Check                               Yes
               $2,291 for incorrect rates billed during travel.                                                                               disallowed costs
                                                                                                                                                                   APPENDIX II

                                                        MANAGEMENT RESPONSES TO RECOMMENDATIONS


                                                                                                      Documentation That                         Management
 Rec.                                                                          Expected                  Will Confirm          Monetary         Decision: Yes or
Number           Corrective Action: Taken or Planned/Status                 Completion Date              Final Action          Benefits                No


         The General Counsel, Legal Division, agreed to disallow                                                                  $2,346
  6                                                                     180 days from final report   Law Firm Refund Check                            Yes
         $2,346 for unauthorized rates.                                                                                      disallowed costs


         The General Counsel, Legal Division, agreed to disallow $862                                                              $862               Yes
  7                                                                     180 days from final report   Law Firm Refund Check
         for non-billable tasks.                                                                                             disallowed costs


         The General Counsel, Legal Division, agreed to disallow                                                                  $8,389
  8                                                                     180 days from final report   Law Firm Refund Check                            Yes
         $8,389 for photocopying charges.                                                                                    disallowed costs


         The General Counsel, Legal Division, agreed to disallow                                                                  $2,701
  9                                                                     180 days from final report   Law Firm Refund Check                            Yes
         $2,701 for unsupported telephone expense.                                                                           disallowed costs


         The General Counsel, Legal Division, agreed to disallow                                                                  $1,016
  10                                                                    180 days from final report   Law Firm Refund Check                            Yes
         $1,016 for local meal charges.                                                                                      disallowed costs
